                                  INSPECTION




 ENFORCEMENT OF APPROXIMATE
 ORIGINAL CONTOUR IN OKLAHOMA
 BY THE OFFICE OF SURFACE MINING
 RECLAMATION AND ENFORCEMENT




Report No.: IU-IS-OSM-0002-2013     August 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S. DEPARTMENT OF THE INTERIOR

                                                                                          AUG 0 5 2013
Memorandum

To:            Joseph Pizarchik
               Director, Office ~e Mining Reclamation and,Enforcement

From:          Donald W.   Cairn~~!J. ~
               Deputy Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Final Inspection Report- Enforcement of Approximate Original Contour in
               Oklahoma by the Office of Surface Mining Reclamation and Enforcement
               Report No. IU-IS-OSM-0002-2013

        We recently completed an inspection of the Office of Surface Mining Reclamation and
Enforcement (OSM). Our objective was to determine whether OSM is ensuring that the
Oklahoma Department of Mines (ODM), the State agency responsible for ensuring the
reclamation of land disturbed by mining operations, is properly enforcing Federal regulations
requiring coal-mining operators to return mined lands to their preexisting topography, or
approximate original contour (AOC). We make three recommendations to address serious
compliance and enforcement problems in Oklahoma, which are adversely affecting the
implementation of the Surface Mining Control and Reclamation Act of 1977's (SMCRA) AOC
requirements.

Scope and Methodology

        To accomplish our objective, we-

        •   obtained a general understanding of Federal laws and regulations applying to
            permitted surface coal mining;
        •   determined what inspection, enforcement, and oversight activities apply to surface
            coal mining in Oklahoma;
        •   visited OSM' s Tulsa Field Office and eight surface mining sites in Oklahoma;
        •   reviewed relevant documentation and internal OSM reports; and
        •   reviewed actions and steps that OSM and ODM have taken to address the
            recommendations described in OSM's 2010 National Priority Review report on AOC.

        We conducted our inspection in accordance with the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency. We
believe that the work performed provides a reasonable basis for our conclusions and
recommendations.




                        Office of Audits, Inspections, and Evaluations I Washington, DC
Background

        Title V of SMCRA, “Control of the Environmental Impacts of Surface Coal Mining,” is
the Federal law that applies to reclamation plan requirements and AOC standards. SMCRA is
implemented and enforced by OSM, which acts as the primary regulator of coal mining in States
or tribes unless a State or tribe demonstrates that it has developed a regulatory program that
meets all of SMCRA’s requirements and implements OSM’s regulations.

        Oklahoma received conditional approval of its permanent regulatory program under
SMCRA in 1981. OSM monitors ODM’s success at regulating mining operators’ restoration of
mine sites to AOC. In this role, OSM’s oversight does not duplicate ODM’s responsibilities;
instead, OSM focuses on whether the program has achieved the purposes of SMCRA. OSM
provides technical and other assistance to Oklahoma to strengthen its program. This includes
conducting inspections and other evaluations of how well Oklahoma’s program ensures
environmental protection, reclamation success, and prevention of offsite impacts. OSM also
provides ODM approximately $1 million per year through a grant to fund the program, enabling
ODM to conduct inspection, enforcement, and regulatory work.

        The money provided to ODM fully funds Oklahoma’s program on Federal lands,
including four fulltime inspectors. OSM’s Tulsa Field Office currently has two senior inspectors
(down from six fulltime in the mid-1990s) performing oversight and enforcement. Tulsa Field
Office inspectors cover four States, including Oklahoma, and are also responsible for oversight
of Title IV of SMCRA (“Abandoned Mine Reclamation”) and related programmatic work.

       Under 30 U.S.C. 1265(b)(3), “Environmental Protection Performance Standards,” mining
operators are required to return mined land to AOC after mining operations at a site have
ceased—that is, the operator must restore the mined land’s topography to its general surface
configuration before mining began. Returning mined lands to AOC helps ensure the safety,
conservation, and stewardship of the lands and their resources for the public and the
Government.

        In 1983, OSM found that ODM was not adequately implementing certain aspects of
Oklahoma’s program and, in accordance with 30 C.F.R. § 733, OSM took over the enforcement
of the portions of the program that had not been adequately implemented. OSM returned
enforcement authority to ODM in 1987. In 1993, OSM initiated another action, but ultimately
did not take over enforcement because ODM made good-faith efforts to correct deficiencies.
This action was terminated in 1999 after ODM satisfied the terms of a 1-year probationary
period established by OSM. OSM records indicate that it has consistently funded the Federal
grant that funds ODM’s program.

        In 2010, OSM issued its National Priority Review report on AOC. This report identified
Oklahoma as the primary surface mining State with ongoing, unresolved AOC problems. Two of
the five Oklahoma mines reviewed for the report were cited as having AOC deficiencies that
needed to be corrected to conform to SMCRA. At one other mine reviewed, OSM reported that it
was not possible to determine whether AOC provisions had been followed because the State-
approved reclamation plan was not detailed enough. All three of these mines are operated by



                                                                                               2
Farrell-Cooper Mining Company, and two, known as Liberty 5 and Liberty 6, are now in
litigation with the U.S. Department of the Interior. ODM is siding with Farrell-Cooper in these
lawsuits.

Results of Inspection

       Accompanied by OSM inspectors, we visited 8 of the approximately 60 “inspectable”
mining units in Oklahoma. Six of the mines we visited, including Liberty 5 and 6, are operated
by Farrell-Cooper, which is the largest surface mining company in Oklahoma. We observed
mines in various states of reclamation, restoration, and abandonment (see Figures 1 and 2).




Figure 1. View of unreclaimed land on the Liberty 5 site, one of the Farrell-Cooper mines we visited that is in
litigation. Source: OIG.




                                                                                                              3
Figure 2. View of reclaimed land at Liberty 1, a Farrell-Cooper mining site that has been returned to AOC.
Source: OIG.

        We found that AOC enforcement in Oklahoma is not working as intended. OSM’s efforts
at local and national levels to address AOC problems—including new directives to clarify its
oversight role and policy—have been met with strong resistance from the mining industry,
ODM, and certain members of Congress. On the other hand, affected Oklahoma residents have
complained bitterly and vocally about mining companies’ noncompliance with AOC, which can
affect the residents’ livelihoods and personal safety.

OSM Has Not Been Successful in Getting ODM To Ensure That Operators Return Land to AOC

        OSM’s 2010 National Priority Review report found that ODM has not ensured that
mining operators are returning the land to AOC as required. The Tulsa Field Office’s annual
reviews in 2011 and 2012 also state that the same reported issues are still not resolved at Farrell-
Cooper’s Liberty 5, Liberty 6, and Rock Island Mines. We confirmed with the Tulsa Field Office
director and through our site visits that this is still the case:

        •   Farrell-Cooper submitted revisions to its Liberty 5 and Rock Island Mine operation
            permit plans to ODM to match the conditions after mining and reclamation had
            largely been completed—in essence, the land was reclaimed to the current conditions,
            not to AOC. Unfortunately, ODM approved the revised plans for Liberty 5; the
            agency was reviewing the Rock Island Mine revisions at the time of the evaluation.
        •   At Liberty 6, it was not possible to determine whether Farrell-Cooper had followed
            AOC provisions because the State-approved reclamation plan was not detailed
            enough.



                                                                                                             4
        •   OSM has stated that Oklahoma needs to reassess both its permitting and
            implementation of AOC determinations to ensure that mining operators comply with
            all AOC requirements. ODM, however, has refused to sign the action plan OSM
            created to bring ODM into compliance.

         With Tulsa Field Office inspectors, we attended a meeting for local citizens and
homeowners at Rock Island Mine. At the meeting, we heard that ODM has not been forthright in
its dealings with the homeowners who live near the mine. For example, homeowners complained
about a high berm with a steep slope that the company had left behind after the site was
reclaimed. When the homeowners told ODM the berm blocked their view of the mountains,
ODM informed them that the landowner wanted the berm to remain and ODM could do nothing
about it. The landowner, a farmer and cattle rancher, denied accepting the berm as satisfactory
AOC because the new grade renders a portion of his land unsuitable for cattle grazing (see
Figure 3).




Figure 3. View of poorly reclaimed land on Rock Island mine site. The berm shown to the right of the road
does not conform to AOC. This berm blocks several homeowners’ view of the mountains and has affected
the landowner’s ability to use the land. Source: OIG.

        In addition to poor reclamation practices, the Tulsa Field Office told us about numerous
instances of surface mining operators in Oklahoma halting active mining at sites while claiming
that they intend to return to mining at a future date. Because these mines are technically still
open, they do not have to be reclaimed immediately, in effect allowing the operators to
circumvent AOC requirements. Some of these mines have been dormant or abandoned for years
(see Figure 4). The law and regulations addressing “temporary cessation” of mining activity are
vague. An operator can simply declare its intention to temporarily cease mining; there is no



                                                                                                            5
current requirement for a State or OSM to approve this action. The permitting processes do not
specify time limits on halting and restarting mining activity.




Figure 4. View of unreclaimed land on Cavenal West site with spoil pile (the dirt, rocks, and other materials
dug out of the mine) in the foreground. The mine is in temporary cessation. (A reclaimed area is visible in the
background.) Source: OIG.

        OSM is already addressing the problems associated with temporary cessation (and the
related AOC issue) through the rulemaking process. While Federal regulations concerning
temporary cessation are sparse, some States have their own regulations, which OSM officials
told us they are currently studying for use as best practices. We understand that OSM plans to
have a draft rule ready soon.

       While OSM is working on the temporary cessation issue, the underlying problem—
ODM’s poor enforcement of AOC and SMCRA regulations—still exists. In the past, OSM has
temporarily taken over ODM’s program while working with Oklahoma to bring the program
back into compliance with SMCRA. We found, however, that OSM has never reduced or
terminated the grant that funds ODM’s program. Under 30 C.F.R. § 735.21, “Grant Reduction
and Termination,” if an entity fails to implement, enforce, or maintain an approved program, the
Federal agency must terminate the administration and enforcement grant.

 The Ten-Day Notice (TDN) Process Is Not Functioning As Intended in Oklahoma

        Under SMCRA, TDNs are key tools for notifying regulatory agencies about violations
such as AOC issues and requiring corrective action within specified timeframes. TDNs can be
issued at any point during the mining process, even if the mine is closed. In general, OSM must


                                                                                                             6
issue a TDN to State or tribal regulatory authorities when it has reason to believe a violation
exists or when it determines, based on a Federal inspection, that a violation exists. Citizens may
also request a Federal inspection. When the authorized OSM representative has notified the State
regulatory authority of the possible violation, the State has 10 days to take appropriate corrective
action or to show good cause for failure to respond within the specified timeframes. If the State
fails within 10 days after notification to take appropriate action to cause the violation to be
corrected, or to show good cause for such failure, the authorized representative is required to
reinspect and, if the violation continues to exist, issue a notice of violation or cessation order, as
appropriate.

         OSM senior officials have acknowledged that AOC enforcement in Oklahoma has been
problematic and that implementation of the TDN process has been part of the reason. The Tulsa
Field Office issued or closed 15 TDNs with 39 violations between October 2010 and July 2012;
of these, 13 percent were AOC related. Tulsa Field Office officials told us that they have been
criticized by senior management for issuing too many TDNs in Oklahoma. Although the Tulsa
Field Office performed only 14 oversight inspections in Oklahoma, it issued 7 TDNs as a
result—11 percent of the 65 TDNs that OSM issued Nationwide in 2012.

         Another issue that makes AOC enforcement difficult is the TDN challenge process. A
State agency or tribal representative may challenge, or appeal, a TDN to the applicable OSM
regional manager. The OSM regional manager is required to affirm, reverse, or modify the TDN
determination within 15 days after receipt of any request for informal review. Some TDNs issued
by OSM for AOC violations in 2010 still have not been resolved. For example, OSM noted
violations at Rock Island Mine. After attempting to work with ODM to compel Farrell-Cooper to
resolve the violations, OSM eventually issued a TDN to the company in July 2012 for (1) failure
to file a permit renewal application at least 120 days before the expiration of the permit term and
(2) failure to achieve AOC. ODM accepted the first part of the TDN and issued a notice of
violation to the company, but the agency disputed the second part. Three years have now passed
since this AOC issue was first reported.

       TDNs can be powerful tools for correcting violations, but only when they are acted on in
a timely manner. Allowing TDNs to stall in the challenge process means that violations can
remain uncorrected for longer than SMCRA intended.

Recommendations

       We recommend that OSM:

       1. Suspend the Federal grant funding that addresses the AOC portion of Oklahoma’s
          enforcement program until Oklahoma complies with SMCRA;

       2. Revise the TDN process to improve its effectiveness; and

       3. Correct TDN implementation by bringing it into compliance with SMCRA
          timeframes so that it functions as intended in Oklahoma.




                                                                                                     7
        Please provide a written response to this report within 30 days. The response should
provide information on actions planned or taken to address the recommendations, as well as
target dates and title(s) of the official(s) responsible for implementation. Please send your
response to:

               Donald W. Cairns
               Deputy Assistant Inspector General
               Office of Audits, Inspections, and Evaluations
               U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 4428
               1849 C Street, NW.
               Washington, DC 20240

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.

       If you have any questions regarding this report, please contact me at 202-208-1454 or
Inspections Unit Director Suzanna Park at 703-487-5351.




                                                                                                  8
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
